HHS/OIG, Audit -"Review of Montana Medicaid Program - Nursing Homes as
Institutions for Mental Diseases,"(A-07-04-02018)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Montana Medicaid Program - Nursing Homes as Institutions for Mental Diseases," (A-07-04-02018)
December 8, 2004
Complete
Text of Report is available in PDF format (428 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this review were this determine whether:  (1) Montana was monitoring nursing homes to ensure compliance
with institutions for mental disease (IMD) criteria; and (2) nursing homes participating in the Montana Medicaid program
were IMDs.  We reviewed nursing homes participating in the Medicaid program during Federal fiscal year 2003.  Montana
needs to establish specific controls to monitor nursing homes for compliance with IMD criteria.  We also recommended
that Montana monitor and evaluate, with qualified medical personnel, two nursing homes that may be IMDs.  Montana
responded that it did have several controls in place to assist in monitoring for compliance, and provided further analysis
to show that the nursing homes identified in our report are not IMDs.  They also agreed to institute procedures to
routinely monitor for compliance with IMD criteria.